No. 20-989
IN THE

Supreme Court of the United States
————
CITY OF NEWARK,
v.

Petitioner,

FRATERNAL ORDER OF POLICE,
NEWARK LODGE NO. 12,
Respondent.
————
On Petition for Writ of Certiorari to the
New Jersey Supreme Court
————
BRIEF OF AMICUS CURIAE JERSEY CITY
POLICE OFFICERS BENEVOLENT
ASSOCIATION IN SUPPORT OF RESPONDENT
————
JAMES M. METS
Counsel of Record
BRIAN J. MANETTA
NICHOLAS P. MILEWSKI
METS SCHIRO & MCGOVERN, LLP
555 U.S. Highway 1 South
Suite 320
Iselin, New Jersey 08830
(732) 636-0040
jmets@msmlaborlaw.com
Counsel for Amicus Curiae,
Jersey City Police Officers
Benevolent Association
March 29, 2021
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ................................

ii

INTEREST OF THE AMICUS CURIAE ............

1

SUMMARY OF THE ARGUMENT ....................

2

ARGUMENT ........................................................

4

THE PETITION MUST BE DENIED BECAUSE
THE NEW JERSEY SUPREME COURT HAS
PROPERLY DECIDED THIS MATTER
BASED ON STATE LAW ....................................

4

CONCLUSION ....................................................

20

(i)

ii
TABLE OF AUTHORITIES
CASES

Page(s)

Dome Realty, Inc. v. City of Paterson,
83 N.J. 212 (1980) .....................................

13

Durley v. Mayo,
351 U.S. 277 (1956) ...................................

5

Fraternal Order of Police, Newark
Lodge No. 12 v. City of Newark,
244 N.J. 75 (2020) ....................................passim
Fraternal Order of Police, Newark
Lodge No. 12 v. City of Newark,
459 N.J. Super. 458 (App. Div. 2019) .......

8

Groppi v. Wisconsin,
400 U.S. 505 (1971) ...................................

9

Henry v. Rahway State Prison,
81 N.J. 571 (1980) .....................................

17

Honeyman v. Hanan,
300 U.S. 14 (1937) .....................................

5

Hortonville Joint Sch. Dist., No. 1 v.
Hortonville Educ. Ass’n,
426 U.S. 482 (1976) ...................................

3, 9

Illinois v. Gates,
462 U.S. 213 (1983) ...................................

2, 7

In re Shain,
92 N.J. 524 (1983) .....................................

15

Kingsley Pictures Corp. v. Regents,
360 U.S. 684 (1959) ...................................

9

Lynch v. People of New York
ex rel. Pierson,
293 U.S. 52 (1934) .....................................

5, 6

iii
TABLE OF AUTHORITIES—Continued
Page(s)
McGoldrick v. Compagnie Generale
Transatlantique,
309 U.S. 430 (1940) ...................................

6, 7

Rivell v. Civil Service Comm’n,
115 N.J. Super. 64 (App. Div. 1971) .........

17

STATUTES
28 U.S.C. § 1257 ...........................................

4, 5

N.J.S.A. 11A:2-13 .......................................... 9, 18
N.J.S.A. 11A:2-15 .........................................

18

N.J.S.A. 40:48-2 .................................... 3, 8, 10, 13
N.J.S.A. 40A:14-118........................................ passim
N.J.S.A. 40A:14-147......................................... 9, 18
N.J.S.A. 40A:14-150 .....................................

18

N.J.S.A. 40A:14-181 ...................................... passim
N.J.S.A. 52:17B-101 .....................................

11

OTHER AUTHORITIES
New Jersey Office of the Attorney General,
Internal Affairs Policy and Procedures,
August 2020 version ....................... 2, 12, 17, 18
N.J. A.B. No. 4656 (Sept. 17, 2020) .............

15

N.J. S.B. No. 2973 (Sept. 24, 2020) ..............

14

INTEREST OF THE AMICUS CURIAE1
Amicus curiae, Jersey City Police Officers Benevolent
Association, (hereinafter, “POBA”) is a public sector
labor union that serves as the exclusive negotiations
representative for more than seven hundred nonsupervisory sworn Police Officers employed by the
City of Jersey City (hereinafter, “Jersey City”). The
POBA and its members have a substantial interest in
ensuring that investigations into police officer conduct
are performed in a uniform and consistent manner as
required by the statutory and common law of the State
of New Jersey. The New Jersey Supreme Court’s
decision in Fraternal Order of Police, Newark Lodge
No. 12 v. City of Newark, 244 N.J. 75 (2020), strikes an
appropriate balance between the City of Newark’s
(hereinafter, “Newark” or “Petitioner”) asserted goal of
improving oversight of its police department through
the creation of a civilian complaint review board
(hereinafter, “CCRB”) while maintaining the integrity
of the department’s internal affairs process.
This case concerns Amicus because Jersey City, like
Newark, seeks to pass an ordinance implementing a
CCRB. Thus, the outcome of this case will directly
affect the POBA and its members.

1

Pursuant to Supreme Court Rule 37.2, the parties were
notified more than 10 days prior to the filing of this brief. Blanket
letters of consent to file amicus curiae briefs have been filed by
the parties with the Clerk of the Court pursuant to Supreme
Court Rule 37.3. Pursuant to Supreme Court Rule 37.6, counsel
for Amicus states that no counsel for a party authored this brief
in whole or in part, and that no person other than Amicus, its
members, or its counsel made a monetary contribution to the
preparation or submission of this brief.

2
In New Jersey, the internal affairs function of
municipal, county, and higher education law enforcement
agencies is governed by the Internal Affairs Policy
and Procedures (hereinafter, “IAPP”) promulgated by
the State’s Attorney General. Pursuant to N.J.S.A.
40A:14-181, the IAPP has been given the force of
law. Discipline and disciplinary procedures for law
enforcement officers are established by statutory and
common law. The statutory requirements provide for
an orderly and consistent means of discipline. The
POBA has an interest in ensuring that its members
are investigated and disciplined in a manner consistent with New Jersey law. Accordingly, Amicus
files this brief in support of Respondent, Fraternal
Order of Police, Lodge No. 12 (hereinafter, “FOP”), in
this matter.
SUMMARY OF THE ARGUMENT
This Honorable Court should not grant Newark’s
Petition for Writ of Certiorari in this matter. The New
Jersey Supreme Court’s decision in Fraternal Order
of Police, Newark Lodge No. 12 v. City of Newark,
244 N.J. 75 (2020) was properly decided based on
applicable New Jersey statutory and common law.
Petitioner and its supporting Amicus, Jersey City,
attempt to create federal constitutional issues out of
whole cloth, which were not argued below and are
an after-the-fact attempt to invoke the jurisdiction of
this Court. This Court need not consider Petitioner’s
federal claims that were not addressed or properly
presented to the New Jersey Supreme Court (hereinafter,
“NJSC”). Illinois v. Gates, 462 U.S. 213, 217-219 (1983).
Accordingly, this Honorable Court must deny the Petition.
The NJSC properly limited the power of Newark’s
CCRB in accordance with the statutory and common
law of the State. This Court is bound to accept the

3
interpretation of New Jersey law by the NJSC.
Hortonville Joint Sch. Dist., No. 1 v. Hortonville Educ.
Ass’n, 426 U.S. 482, 488 (1976). As New Jersey’s
highest court properly recognized, N.J.S.A. 40:48-2
provides a broad grant of police power to municipalities. Fraternal Order of Police, Newark Lodge No. 12,
244 N.J. at 102. This broad grant of power was
sufficient to support the creation of the CCRB. Id. at
103. However, N.J.S.A. 40A:14-181 does not permit
the CCRB to conduct concurrent investigations with
a department’s internal affairs unit. Id. at 106.
Similarly, the statutory and common law of New
Jersey does not permit a municipal governing body to
delegate its subpoena power to the CCRB. Id. at 112.
These issues involve New Jersey law and the NJSC’s
decision was based solely on its interpretation of New
Jersey law.
Despite never raising federal constitutional issues
below, Petitioner and its supporting Amicus, Jersey
City, argue that this case is about the “unconstitutionally disparate treatment of Black and White civilians
by police, and which stakeholders get to participate in
crafting a solution.” Amicus recognizes that this is a
significant matter that must be addressed, however,
that is not what this case is about. This case concerns
whether New Jersey’s statutory scheme grants the
CCRB, a body separate and distinct from a municipal
governing body, the power to issue subpoenas and to
perform complaint-based investigations of allegations
of police misconduct concurrently with internal affairs
investigations. As the NJSC properly determined, it
does not.
As set forth more fully below, this Honorable Court
should decline to grant the Petition for Certiorari in
this matter.

4
ARGUMENT
THE PETITION MUST BE DENIED BECAUSE
THE NEW JERSEY SUPREME COURT
HAS PROPERLY DECIDED THIS MATTER
BASED ON STATE LAW.
Petitioner claims that the NJSC’s decision violates
the United States Constitution. These constitutional
claims, however, were never raised by Petitioner before
the NJSC. For this reason alone, the Petition must be
denied.
Even if this Honorable Court were to review the
merits of this case, the NJSC properly decided it based
on applicable state law. In so doing, the NJSC’s
decision ensures that internal affairs investigations
and law enforcement discipline will be administered
uniformly. Had the NJSC decided differently, law
enforcement officers throughout New Jersey would be
subject to different standards of conduct, one promulgated by their agency and one created by the CCRB.
The NJSC’s decision avoids this result. Accordingly,
this Court must not grant Newark’s Petition for
Certiorari.
1. Petitioner alleges that the NJSC’s decision violates the Equal Protection and Necessary and Proper
Clauses of the Constitution as well as the Separation
of Powers doctrine. Amicus Jersey City adds that
Newark’s Due Process Rights have been violated and
the decision is contrary to the Political Process doctrine. These claims, however, were never raised before
the NJSC. Thus, this Court should refrain from
hearing this matter.
This Court’s jurisdiction over state court decisions
derives from 28 U.S.C. §1257. The statute provides
that “[f]inal judgments or decrees rendered by the

5
highest court of a state in which a decision could be
had, may be reviewed by the Supreme Court by writ of
certiorari. . .” 28 U.S.C. §1257(a) (2021). However,
such a decision may only be reviewed “where the
validity of a statute of any State is drawn in question
on the grounds of its being repugnant to the
Constitution, treaties or laws of the United States
or where any title, right, privilege or immunity is
specially set up or claimed under the Constitution or
the treaties or statutes of, or any commission held
or authority exercised under, the United States.”
28 U.S.C. §1257(a) (2021).
It is not sufficient, however, that the matter sought
to be reviewed concerns a federal question. Rather,
the specific federal question must be pressed and
passed upon by the highest court of the state in which
a decision could be had. “It is a well-established
principle of this Court that before we will review a
decision of a state court it must affirmatively appear
from the record that the federal question was presented to the highest court of the State having
jurisdiction and that its decision of the federal question was necessary to its determination of the cause.”
Durley v. Mayo, 351 U.S. 277, 281 (1956), quoting,
Honeyman v. Hanan, 300 U.S. 14, 18 (1937); Lynch v.
People of New York ex rel. Pierson, 293 U.S. 52, 54
(1934).
In Lynch v. People of New York ex rel. Pierson,
293 U.S. 52 (1934), this Court held:
It is essential to the jurisdiction of this Court
in reviewing a decision of a court of a state
that it must appear affirmatively from the
record, not only that a federal question was
presented for decision to the highest court of
the state having jurisdiction, but that its

6
decision of the federal question was necessary
to the determination of the cause, and that it
was actually decided or that the judgment as
rendered could not have been given without
deciding it. Lynch, 293 U.S. at 54.
In McGoldrick v. Compagnie Generale Transatlantique,
309 U.S. 430 (1940), this Court stated: “But it is also
the settled practice of this Court, in the exercise of its
appellate jurisdiction, that it is only in exceptional
cases, and then only in cases coming from federal courts,
that it considers questions urged by a petitioner or
appellant not pressed or passed upon in the courts below.”
McGoldrick, 309 U.S. at 434. This Court further
explained:
In cases coming here from state courts in
which a state statute is assailed as unconstitutional, there are reasons of peculiar force
which should lead us to refrain from deciding
questions not presented or decided in the
highest court of the state whose judicial
action we are called upon to review. Apart
from the reluctance with which every court
should proceed to set aside legislation as
unconstitutional on grounds not properly
presented, due regard for the appropriate
relationship of this Court to state courts
requires us to decline to consider and decide
questions affecting the validity of state
statutes not urged or considered there. It is
for these reasons that this Court, where the
constitutionality of a statute has been upheld
in the state court, consistently refuses to
consider any grounds of attack not raised or
decided in that court. McGoldrick, 309 U.S.
at 434.

7
In Illinois v. Gates, 462 U.S. 213 (1983), this Court
acknowledged, without deciding, that the “not pressed
or passed upon below” rule may be a prudential
restriction and not a jurisdictional bar. Id. at 222.
However, the distinction was immaterial in that case
and the Court declined to decide the issue not raised
below. Id. The Court identified several reasons for
this decision. First, “questions not raised below are
those on which the record is very likely to be inadequate since it certainly was not compiled with those
questions in mind.” Id. at 221. Second, “due regard
for the appropriate relationship of this Court to state
courts requires that state courts be given an opportunity to consider the constitutionality of the action, as
well as proposed changes in existing remedies for
unconstitutional actions.” Id. at 222, citing McGoldrick,
309 U.S. at 434. Finally, by requiring that the matter
be raised in the state court, the state court is availed
of the opportunity to rest its decision on an adequate
or independent state ground. Id.
Here, the NJSC did not have the opportunity to
review and pass upon Petitioner’s claimed federal
constitutional violations because it never raised these
claims before New Jersey’s highest court. The NJSC
issued a thorough and thoughtful opinion addressing
the arguments raised by the FOP and the arguments
raised by Newark in its opposition. See Fraternal
Order of Police, Newark Lodge No. 12 v. City of
Newark, 244 N.J. 75 (2020). The only constitutional
claim raised before the NJSC was the FOP’s argument
that Newark’s Ordinance violated the due process
rights of officers, which the Court found to be
premature. Id. at 113.
The NJSC did not have the opportunity to address
any of the claims that Petitioner advances now

8
because none of those claims were raised before it.
Petitioner did not raise claimed violations of the
United States Constitution’s Equal Protection and
Necessary and Proper Clauses and the Separation of
Powers doctrine before the NJSC, nor did it raise
these claims before the Appellate Division below. See
Fraternal Order of Police, Newark Lodge No. 12 v. City
of Newark, 459 N.J. Super. 458 (App. Div. 2019).2
Similarly, the alleged violations of the Due Process
Clause and the Political Process doctrine of the Equal
Protection Clause raised by Amicus Jersey City in its
brief were not before the NJSC.
Because Petitioner failed to raise these claims
before the NJSC, the NJSC never had the opportunity
to pass upon them. This Court should not grant the
Petition because Petitioner’s claims have not been
pressed or passed upon by New Jersey’s highest court.
This is especially so in this case, where the NJSC’s
decision rests on an independent and adequate state
ground. Indeed, the NJSC’s decision is based solely on
its careful analysis of what New Jersey law allows,
and what it does not. Because the NJSC did not have
the opportunity to decide Petitioner’s claims, this
Court must not grant the Petition.
2. Even if the claims had been properly raised
below, this Court should still decline to exercise its
jurisdiction. It is well settled that this Court is bound
2

The Appellate Division did address N.J.S.A. 40:48-2, which it
found “akin to the necessary and proper clause in the United
States Constitution.” Fraternal Order of Police, Newark Lodge
No. 12 v. City of Newark, 459 N.J. Super. 458, 489 (App. Div.
2019). However, the NJSC did not draw the same comparison
and did not analyze that statute in the same manner. Fraternal
Order of Police, Newark Lodge No. 12 v. City of Newark, 244 N.J.
75, 117 (2020).

9
to accept the interpretation of New Jersey law by the
NJSC. Hortonville Joint Sch. Dist. No. 1 v. Hortonville
Educ. Ass’n, 426 U.S. 482, 488 (1976), citing, Groppi v.
Wisconsin, 400 U.S. 505, 507 (1971); Kingsley Pictures
Corp. v. Regents, 360 U.S. 684, 688 (1959). Here, the
NJSC’s decision is based entirely on its interpretation
of state law. As this Honorable Court is constrained
to the NJSC’s interpretation of New Jersey law, the
Petition must be denied.
In New Jersey, the administration of municipal
police departments and the investigation and discipline of municipal, county, and higher education law
enforcement officers are regulated by statute. See, e.g.,
N.J.S.A. 40A:14-118 (2021); N.J.S.A. 40A:14-147 (2021),
N.J.S.A. 40A:14-181 (2021); N.J.S.A. 11A:2-13 through
22 (2021). The NJSC properly analyzed the applicable
New Jersey statutes in determining (1) that Newark
had the right to create the CCRB by ordinance; (2) that
the CCRB did not have the authority to conduct
complaint-based investigations concurrently with an
internal affairs investigation; (3) that the CCRB could
investigate citizen complaints for which no internal
affairs investigation was undertaken; (4) that the
CCRB could create a disciplinary matrix to be used by
the public safety director, conduct oversight reviews
and report periodically to the public safety director
and municipal council; and (5) that the municipality
lacked the authority to enact an ordinance that
delegated subpoena power to the CCRB. Fraternal
Order of Police, Newark Lodge No. 12 v. City of
Newark, 244 N.J. 75 (2020).
After initially acknowledging that Newark had “the
power to act legislatively where such authority has
been delegated by the Legislature,” the NJSC recognized that “where municipal power to act exists,

10
municipal action cannot run contrary to statutory
or constitutional law.” Id. at 92-93. To determine
whether Newark’s ordinance was contrary to law, the
NJSC examined N.J.S.A. 40:48-2, N.J.S.A. 40A:14-118
and N.J.S.A. 40A:14-181.
N.J.S.A. 40A:14-118 allows the governing body of a
municipality to create and establish a police force by
ordinance and requires the ordinance to provide for a
“line of authority relating to the police function and for
the adoption and promulgation by the appropriate
authority of rules and regulations for the government
of the force and the discipline of its members.” N.J.S.A.
40A:14-118 (2021). The statute further outlines the
duties and responsibilities of the chief of police, if
such position is established and defines “appropriate
authority.”3 The statute also provides that:
Nothing herein contained shall prevent the
appointment by the governing body of committees or commissions to conduct investigations of the operation of the police force, and
the delegation to such committees or commissions such powers of inquiry as the governing
3

“Appropriate authority” is defined as:
the mayor, manager, or such other appropriate
executive or administrative officer, such as a full-time
director of public safety, or the governing body or any
designated committee or member thereof, or any
municipal board or commission established by
ordinance for such purposes, as shall be provided by
ordinance in a manner consistent with the degree of
separation of executive and administrative powers
from the legislative powers provided for in the charter
or form of government either adopted by the
municipality or under which the governing body
operates. N.J.S.A. 40A:14-118 (2021).

11
body deems necessary or to conduct such
hearing or investigation authorized by law.
N.J.S.A 40A:14-118 (2021).
The NJSC properly determined, based on the text
and legislative history, that N.J.S.A. 40A:14-118 created
a single “appropriate authority” designated to buffer
the police force from political interference. Fraternal
Order of Police, Newark Lodge No. 12, 244 N.J. at 97.
As a result, the CCRB could not be a second
“appropriate authority” pursuant to the statute as
Newark’s municipal code designated the Public Safety
Director as the “appropriate authority.” Id. Only the
appropriate authority may establish the rules and
regulations of the department, which the police chief
must enforce. Id. at 98. The police chief reports on
day-to-day operations, including the disciplining of
officers, to the appropriate authority. Id. The NJSC
noted that while N.J.S.A. 40A:14-118 preserves to the
governing body the ability to create committees, it
similarly reserved to the “appropriate authority or any
executive or administrative officer charged with
general administrative responsibilities within the
municipality,” the ability to examine “operations of the
police or the performance of any officer or member
thereof.” Id. at 99.
The NJSC next considered the role of N.J.S.A.
40A:14-181 in the analysis. Fraternal Order of Police,
Newark Lodge No. 12, 244 N.J. at 100. New Jersey’s
Criminal Justice Act provides the State’s Attorney
General with broad law enforcement authority.
N.J.S.A. 52:17B-101 (2021). Pursuant to that authority, the Attorney General promulgated the IAPP.
N.J.S.A. 40A:14-181 requires every municipal, county,
and higher education institution law enforcement
agency within New Jersey to adopt and implement

12
internal affairs policies consistent with the IAPP.
N.J.S.A. 40A:14-181 (2021).
As the NJSC recognized, the IAPP establishes
uniform procedures for investigating complaints of
officer misconduct. Fraternal Order of Police, Newark
Lodge No. 12, 244 N.J. at 100. The IAPP, which was
last updated in August 2020, requires all municipal
and county law enforcement agencies to establish,
by written policy, an internal affairs unit or function.4
It also requires that reports by the public alleging
officer misconduct be accepted and fully and promptly
investigated and that confidential information is
safeguarded. The IAPP sets forth exhaustive procedures for the investigation of internal affairs complaints as well as the rights officers retain during the
internal affairs process. The NJSC acknowledged that
the internal affairs process is insular, consisting of
trained law enforcement personnel who are directly
responsible to the law enforcement executive or the
designated internal affairs supervisor. Fraternal
Order of Police, Newark Lodge No. 12, 244 N.J. at 101.
The NJSC further recognized that while there is
some discretion granted to law enforcement agencies
to fulfill the requirements of the IAPP, there are also
mandatory provisions. Id. These include the requirement that each agency establish and maintain a
confidential process, including an internal affairs
record system that includes an internal affairs index
and filing system for all documents and records. Id.
Internal affairs records must also be managed and

4

IAPP, August 2020 Version, available at https://www.
nj.gov/oag/dcj/agguide/directives/IAPP-August-2020-Version.
pdf (last visited March 17, 2021).

13
secured, and internal affairs personnel must receive
certain training. Id.
After examining these State statutes, the NJSC
applied the law to Newark’s ordinance establishing
the CCRB pursuant to the three-part test outlined in
Dome Realty, Inc. v. City of Paterson, 83 N.J. 212, 22526 (1980). This test requires a court reviewing the
validity of a challenged municipal action to determine
(1) whether the State Constitution prohibits delegation
of municipal power on a particular subject because of
the need for uniformity of regulation throughout the
State; (2) if the Legislature may delegate authority in
the area under scrutiny, the second question is whether
the Legislature has in fact done so; and (3) whether
any delegation of power to municipalities has been
preempted by other State statutes dealing with the
same subject matter. Fraternal Order of Police,
Newark Lodge No. 12, 244 N.J. at 93. In its analysis,
the NJSC relied solely on New Jersey statutory and
common law and did not address the Constitution of
the United States or any federal statute.
The NJSC acknowledged that N.J.S.A. 40:48-2
provides a broad grant of police powers to municipalities. Id. at 102. Accordingly, the NJSC determined that
questions concerning Newark’s ability to create the
CCRB arose solely under the third prong of the
analysis. Id. at 103.
Regarding this prong, the NJSC first determined
that neither N.J.S.A. 40A:14-118 nor N.J.S.A. 40A:14181 preempt the creation of the CCRB. Id. However,
both statutes serve to limit certain powers that the
ordinance grants the CCRB. Id. In this regard the
NJSC determined that the prospect of concurrent
investigations by the CCRB and the internal affairs
unit created a conflict between the ordinance and

14
statutory policies. Id. at 105. The NJSC stated:
“under present law, the IA process must remain a
self-contained, confidential process as designed with
respect to the personnel selected and trained to perform
such investigations, responsive to the chief who has
ultimate responsibility for IA operation and separated
on a reporting basis from others on the force.” Id. at
106. The NJSC also recognized that the IAPP’s strict
confidentiality requirements are mandated by N.J.S.A.
40A:14-181 and “no creation of a municipality can
interfere with the IA function as it is required to
operate.” Id. at 107.
A concurrent investigation between the internal
affairs unit and the CCRB does not comport with
N.J.S.A. 40A:14-181 and the IAPP’s requirements.
The NJSC opined: “The IA investigatory process is
disrupted, the police chief’s authority over IA function
and its proper operation is diminished, and the carefully preserved structure of the IA unit responsible to
the chief of police is breached by allowing a concurrent
investigation by the CCRB with required departmental disclosure of IA investigatory information to
the CCRB for use in its own investigation.” Id. at 107.
Basing its decision entirely on New Jersey statutory
law, the NJSC determined that “[u]nless legislative
change occurs, we are constrained to preclude the
CCRB from employing its delegated authority to
conduct complaint-based investigations in any matter
where there is an IA investigation.” Id. at 108.5

5

The New Jersey Legislature is considering the NJSC’s
decision and the authority of a CCRB in Senate Bill No. 2973
(Introduced September 24, 2020) and Assembly Bill No. 4656
(Introduced September 17, 2020).

15
In making this determination, the NJSC necessarily
limited its holding to conform to the State statutes
that it had analyzed.
To that end, the NJSC
determined that the investigatory power of the CCRB
poses no conflict with statutory law when used to
investigate a citizen complaint that is not subject to an
internal affairs investigation. Id. at 108-09. The NJSC
similarly determined that Newark’s Public Safety
Director, as the appropriate authority, could direct the
chief of police to initiate charges against a police officer
based on the findings of the CCRB. Id. at 109. The
NJSC also determined that the CCRB’s power to
create a disciplinary matrix to be used by the Director
of Public Safety, conduct oversight reviews of the
department (which includes the internal affairs unit)
and report periodically to the Director of Public Safety
and the Council were consistent with N.J.S.A. 40A:14118. Id. These determinations were also based solely
on New Jersey statutory law.
Next, the NJSC addressed the delegation of subpoena
power to the CCRB, and determined that this grant
could not be “squared with existing statutes.” Id. at
111. Relying on its decision in In re Shain, 92 N.J.
524, 539 (1983), the NJSC explained that pursuant to
its legislative function, the governing body has the
inherent legislative power to investigate and interrogate officials under oath and to, among other things,
issue subpoenas in furtherance of its proper legislative
function. Fraternal Order of Police, Newark Lodge
No. 12, 244 N.J. at 111. However, the CCRB is not
the governing body, nor is it a subcommittee of the
governing body. Id. “Therefore, it cannot derive from
the Council the subpoena power recognized in Shain.”
Id. Similarly, the NJSC found that the subpoena
power cannot be derived from N.J.S.A. 40A:14-118. Id.
(Citing to numerous instances in which the Legislature

16
specifically granted certain individuals and bodies
subpoena power). In the absence of a clearly expressed
intent by the Legislature, the NJSC concluded that the
Legislature did not intend to give municipalities the
ability to distribute subpoena power to public-member
commissions. Id.
At the conclusion of its decision, the NJSC addressed
the FOP’s argument concerning due process, finding it
premature. Id. at 113. This is the only instance in
its decision where the NJSC passed upon a federal
constitutional issue.
The NJSC’s decision rests squarely, and solely, on
its interpretation of the statutes and common law of
the State of New Jersey. It does not implicate the
Equal Protection Clause or the Necessary and Proper
Clause of the United States Constitution, nor does it
violate the Separation of Powers doctrine as Petitioner
claims. It does not violate Newark’s Due Process rights
or the Political Process doctrine as Amicus Jersey City
claims. The entire decision is based on the NJSC’s
analysis of New Jersey law. Petitioner did not raise
any of these arguments to the NJSC. Accordingly, this
Honorable Court must not grant the Petition.
3. The NJSC made the only decision possible under
New Jersey’s current statutory scheme. As the NJSC
noted, the applicable statutes “do not bespeak a
moving target.” Id. at 98. Granting the CCRB the
power to conduct concurrent investigations with internal
affairs and granting them subpoena power would
create multiple lines of authority and thus multiple
standards by which law enforcement officers’ conduct
will be judged. The standards in New Jersey would be
a “moving target” that is not contemplated by statute.
Such a “moving target” would make it impossible for

17
law enforcement officers, like the members of the
POBA, to properly function.
Law enforcement agencies in New Jersey are
paramilitary organizations. Rivell v. Civil Service
Comm’n, 115 N.J. Super. 64, 72 (App. Div. 1971), rev’d
on other grounds by Henry v. Rahway State Prison,
81 N.J. 571 (1980). Maintaining discipline within such
an organization is paramount. Rivell, 115 N.J. Super.
at 72. However, the Newark Ordinance undermines
the strict hierarchical structure established by N.J.S.A.
40A:14-118 and the IAPP through N.J.S.A. 40A:14-181.
Currently, the conduct of municipal and county law
enforcement officers in New Jersey is governed by the
Rules and Regulations of their respective departments, which are approved by the appropriate authority and enforced by the chief of police, if such position
is established. N.J.S.A. 40A:14-118 (2021). If a law
enforcement officer is alleged to have violated those
Rules and Regulations, or if a complaint is made about
the law enforcement officer’s conduct by a member of
the public or the department, the procedures set forth
in the IAPP provide a uniform and consistent means
of investigating the complaint.
The IAPP ensures that investigations of employee
misconduct are conducted swiftly and require that in
most cases they be completed within 45 days of receipt
of the complaint. IAPP, 6.1.2. When the complaint
involves a criminal matter, the IAPP requires that the
internal affairs investigator defer to the County
Prosecutor. IAPP, 8.0.7. The IAPP further outlines
the rights of law enforcement officers subject to the
investigation, including the right to representation.
IAPP, 8.1.1.

18
Importantly, the IAPP requires that the complaint
be investigated in a confidential manner. IAPP, 9.6.
The IAPP provides: “The nature and source of internal
allegations, the progress of internal affairs investigations and the resulting materials are confidential
information. The contents of an internal investigation
case file, including the original complaint, shall be
retained in the internal affairs function and clearly
marked as confidential.” IAPP, 9.6.1. The confidentiality of the complaint, the complainant and the
process are essential to ensure that individuals are not
dissuaded from filing complaints.
If the internal affairs investigation reveals wrongdoing, the subject law enforcement officer is entitled to
due process such as notice and a hearing on the
charges. N.J.S.A. 40A:14-147 (2021); N.J.S.A. 11A:213 (2021). There are also statutorily defined procedures for appealing any discipline issued. N.J.S.A.
40A:14-150 (2021); N.J.S.A. 11A:2-15 (2021).
The NJSC’s decision granted as much latitude to the
CCRB as it could without upending the entire statutorily defined process. There is no doubt that other law
enforcement agencies will seek to implement CCRB’s
like the one created in Newark. Amicus Jersey City has
indicated that it too has an ordinance creating a CCRB
advancing through its municipal council. If the NJSC
had allowed concurrent investigations and granted
subpoena power, law enforcement officers throughout
New Jersey would be subject to conflicting requirements.
While New Jersey’s statutory law and the IAPP
provide consistency throughout the State, each municipality and county could create different standards
for its CCRB. While the IAPP requires that all
complaints and investigations remain confidential,
had the NJSC ruled differently, a CCRB could

19
subpoena an officer and compel him or her to provide
testimony concerning an open internal affairs investigation. This would place the officer in a position
where he or she is subject to discipline for refusing to
comply with the CCRB’s orders or subject to discipline
for violating the IAPP. The NJSC’s decision avoids
this result.
Moreover, if a CCRB is permitted to conduct investigations concurrent with internal affairs, there is the
possibility for different results. This creates a situation
where law enforcement officers can be held to different
and possibly conflicting standards of conduct. Allowing
concurrent investigations alters the line of authority
and weakens the paramilitary structure of the organization. When a law enforcement officer is faced with
a life-or-death situation, hesitation caused by divergent standards of conduct could be the difference
between returning home safely to their families or
being killed or injured in the line of duty. The NJSC’s
decision, based entirely on New Jersey law, avoids this
outcome.
Although law enforcement discipline is regulated by
statute, it is easy to envision a situation in which an
officer charged with misconduct and subject to a
disciplinary hearing could be subpoenaed by a CCRB,
had it been granted that power. That officer would
then be in a position where he or she would have to
either decline to testify before the CCRB, thus being
subject to further discipline, or potentially giving up
certain rights during their disciplinary hearing.
Neither option is a good one.
This Honorable Court must not grant the Petition
in this matter. The NJSC made its determination
based solely on New Jersey law. It did not have the
opportunity to review and pass upon the federal

20
constitutional issues it raises now for the first time
before this Court. Accordingly, this Court must not
grant Certiorari.
CONCLUSION
For the foregoing reasons, this Honorable Court
should not grant the Petition for Certiorari in this
matter.
Respectfully submitted,
JAMES M. METS
Counsel of Record
BRIAN J. MANETTA
NICHOLAS P. MILEWSKI
METS SCHIRO & MCGOVERN, LLP
555 U.S. Highway 1 South
Suite 320
Iselin, New Jersey 08830
(732) 636-0040
jmets@msmlaborlaw.com
Counsel for Amicus Curiae,
Jersey City Police Officers
Benevolent Association
March 29, 2021

